U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael S. Han v. United States of America,
S.Ct. No. 20-690

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
13, 2020, and placed on the docket on November 18, 2020. The government’s response is due
on December 18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0690
HAN, MICHAEL S.
USA

KEVIN FRANZ KING
COVINGTON & BURLING LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5488
KKING@COV.COM

